<html>
<title> - ADVANCING THE U.S. TRADE AGENDA: TRADE WITH AFRICA AND THE AFRICAN GROWTH AND OPPORTUNITY ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                    ADVANCING THE U.S. TRADE AGENDA:


                   TRADE WITH AFRICA AND THE AFRICAN


                       GROWTH AND OPPORTUNITY ACT

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON TRADE

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 29, 2014

                               __________

                            Serial 113-TR07

                               __________


         Printed for the use of the Committee on Ways and Means
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        







                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-110                    WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 

         
         
         


                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                         SUBCOMMITTEE ON TRADE

                   DEVIN NUNES, California, Chairman

KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
AARON SCHOCK, Illinois               RON KIND, Wisconsin
LYNN JENKINS, Kansas
CHARLES W. BOUSTANY, JR., Louisiana
PETER J. ROSKAM, Illinois


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of July 29, 2014 announcing the hearing.................     2

                               WITNESSES

Ben Leo, Senior Fellow, Director of Rethinking U.S. Development 
  Policy, Center For Global Development..........................     6
William C. McRaith, Chief Supply Chain Officer, PVH Corp.........    18
Witney Schneidman, Senior International Advisor, Covington & 
  Burling LL; Nonresident Fellow, Africa Growth Initiative, 
  Brooking.......................................................    27

                       SUBMISSIONS FOR THE RECORD

Africa Coalition for Trade, statement............................    46
African Cotton & Textiles Industries Federation, statement.......    52
American Sugar Alliance, statement...............................    58
Brown Shoe 072914TR, letter......................................    69
Footwear Distributors and Retailers of America, letter...........    71
National Pork Producers Council, statement.......................    73
U.S. Chamber, statement..........................................    77
CBI Sugar Group, statement.......................................    86


  ADVANCING THE U.S. TRADE AGENDA: TRADE WITH AFRICA AND THE AFRICAN 
                       GROWTH AND OPPORTUNITY ACT

                              ----------                              

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                     Subcommittee on Trade,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m. in 
1100 Longworth House Office Building, the Honorable Devin 
Nunes, [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    

    Chairman NUNES. I would like to call the Committee to 
order. Good afternoon. Welcome to today's hearing on advancing 
our trade agenda and trade with Africa. Before hearing form our 
witnesses, I would like to make three points.
    First, we are committed to a seamless, bipartisan renewal 
of AGOA well before its expiration in fifteen months. 
Congressman Rangel and I worked closely in developing this 
hearing--having jointly selected all the witnesses--and we are 
cooperating to develop a plan for AGOA's renewal. To improve 
the program, we are studying possible changes with an eye 
toward strengthening utilization and effectiveness. We are 
listening to stakeholders on issues like capacity building, 
product coverage and rules of origin, eligibility criteria, and 
graduation among others, so that we can determine what changes, 
if any, are appropriate. To assist in our review we have 
requested an extensive study from GAO. In addition, as part of 
this hearing, we are requesting and encouraging additional 
analysis and suggestions from the public.
    Second, to make AGOA more effective, we must help Africa 
address both political and supply side barriers to trade. To 
encourage greater regional and global integration, Africa must 
remove domestic barriers to trade and investment, including 
high tariffs, forced localization requirements, legal 
restrictions on investment, and customs barriers, among others.
    Supply-side constraints such as poor infrastructure, lack 
of regional integration, and other obstacles impede AGOA 
utilization. We are working with Chairman Royce and the Foreign 
Affairs Committee to develop approaches to assist African 
countries in maximizing AGOA utilization. For example, earlier 
this year the House passed the Electrify Africa Act with strong 
bipartisan support. I call on the Senate to act quickly on this 
important legislation.
    Implementing the recently concluded Trade Facilitation 
Agreement would also help Africa address supply side 
constraints and encourage greater investment from private 
sector and development banks. I am frustrated that India is 
blocking adoption of the deal it agreed to last December, 
harming developed and developing countries alike and 
threatening the WTO's viability.
    Third, as we renew AGOA, we should look at ways to deepen 
and expand our trade relationship with AGOA countries. We 
should expand our TIFA and BIT programs, and seek BITs with 
regional groupings. As countries become ready, we should begin 
negotiating FTAs for the most robust trade relationship. At the 
same time, I am concerned by the EU's efforts to withdraw 
unilateral preferences and force African countries to sign 
bilateral agreements. This approach disadvantages U.S. 
companies seeking to do business in Africa and raises serious 
policy and development concerns.
    Finally, the bipartisan TPA bill that I co-sponsored 
earlier this year with Chairman Camp includes strengthened 
provisions on capacity building and development. I call on the 
Administration to work with Congress to pass this important 
legislation.
    Chairman NUNES. I will now yield to Ranking Member Rangel 
for the purpose of an opening statement.
    Mr. RANGEL. Thank you, Mr. Chairman. It is so refreshing to 
listen to a Chairman of the majority to give a statement that I 
don't have to rebut or contest, or to display political 
eloquence in terms of why I have a different idea. You have 
really worked hard, not only on this bill, but what's in the 
best interest of our great country and how we can help these 
struggling countries that for so long have been neglected.
    And I cannot think of a better time to do this as the 
President of the United States has invited 50 heads of the 
African countries to come, not only to discuss the African 
growth and opportunity bill, which we have these experts here 
to share with us, which is the best direction, but also to be 
able to look at the broad question of what contribution we and 
other nations can make to be of assistance to the spectacular 
growth of the economy of these African countries. And, as you 
said, the reports indicate there are some things, a lot of 
things that we can do better, and working together we would.
    In addition to having the heads of states, there are 500 
young people from Africa that have been coming to the United 
States in order to learn more about our system, both in the 
private and public sector. And I can't think of a better way 
than--to improve our relationships with the countries except 
through their young people. I am seeing that you have given 
permission for Congresswoman Karen Bass to share with us, and I 
want to thank you for this courtesy, because no member of this 
Congress has displayed more in terms of more hard work, which 
is the most important thing, but interest in seeing what the 
United States and what the Congress, and more specifically our 
Committee with the Foreign Affairs Committee, in working 
together under your leadership can do.
    And so I want to thank you for your commitment, and also 
thank the witnesses for helping us and directing us to see what 
we can do better. I truly believe, without exaggeration, that 
this is a historic time in our international trade policies. 
The countries of Africa, the last to get on board, and with our 
help I am certain they can catch up.
    Thank you so much, Chairman Nunes.
    Chairman NUNES. I want to thank you, Mr. Rangel. There is 
no one committed more to getting AGOA passed than yourself from 
the time of our first meeting when I became chair of this 
committee. This was your priority and we worked together on 
this. And there is nothing better than having three witnesses 
here that we all agree upon. I want to welcome all three of 
you.
    The first witness is Ben Leo, Senior Fellow at the Center 
for Global Development. Our second witness is William McRaith, 
Chief Supply Chain Officer for PVH Corporation. Our third 
witness is Witney Schneidman, Senior International Advisor for 
Africa at Covington & Burling, and a non-resident fellow for 
the African Growth Initiative at the Brookings Institution.
    Before we recognize our witnesses, our time is limited this 
afternoon. You should limit your testimony to five minutes and 
Members should keep their questioning to five minutes.
    Mr. Leo, your written statement will be made part of the 
record, and you are now recognized for five minutes.

        STATEMENT OF BEN LEO, SENIOR FELLOW, DIRECTOR OF
     RETHINKING U.S. DEVELOPMENT POLICY, CENTER FOR GLOBAL 
                          DEVELOPMENT

    Mr. LEO. Thank you, Chairman Nunes, Ranking Member Rangel 
and other Members of the Subcommittee.
    I appreciate the opportunity to discuss ways to advance the 
U.S.-Africa Trade and Investment Agenda. This hearing and the 
broader examination of the African Growth and Opportunities 
Act, along with other U.S. policy tools, is extremely well-
timed. When African leaders and business people come to 
Washington next week, we all expect them to deliver a very 
united message that their most pressing objectives are seeking 
ways to generate more trade and investment with the United 
States.
    My remarks today will focus on four interrelated points. 
First, the global competitiveness of African firms is primarily 
constrained by business climate issues, small market size and 
collusive political economic dynamics. Business surveys paint a 
very clear and very stark picture. The biggest constraints are 
unreliable and costly electricity, high transport costs and 
export processing times and access to capital. Addressing these 
kinds of factors, even if only on the margins, will have a 
greater impact on U.S. trade and investment than further 
expanding AGOA's market access provisions. The key question is 
determining where and how the U.S. can best incentivize and 
support reforms by committed African governments.
    Second, despite clear criteria, AGOA country eligibility 
decisions have not reflected whether African governments are 
establishing market-based economies and favorable business 
climates. AGOA was originally designed as a compact with 
African governments, founded upon a commitment to sound 
economic policies, democratic pluralism and respect for human 
and labor rights. While Congress created these eligibility 
criteria equally, successive administrations have implemented 
them in highly unequal ways.
    In practice AGOA eligibility has been used to promote 
democratic freedoms, which is a good thing, while economic 
freedoms have been basically ignored in the eligibility 
determination process. Going forward, Congress should consider 
conditioning preferential access to the $17 trillion U.S. 
economy upon business climate reforms.
    Third, with a few very important exceptions, U.S. trade 
capacity building programs lack an overarching strategy and 
have been fragmented and under-resourced. What we often find 
are a multitude of very small U.S. Government agencies 
providing sporadic and largely insignificant assistance. 
Moreover, U.S. assistance for regional economic communities has 
been modest, despite their outsized role in facilitating 
regional integration and helping to address the problem of 
small market size. On the positive side, the Millennium 
Challenge Corporation and more U.S. initiatives like Power 
Africa and the little-known Trade Africa Initiative are 
focusing on the right issue sand doing a good job. The key is 
ensuring that they have scale and staying power. Going forward, 
Congress and the Obama Administration should bring greater 
focus and coordination and scale to trade capacity building 
programs in Africa.
    Lastly, the U.S. Government should actively pursue legally 
binding, bilateral investment treaties as an additional way of 
promoting economic freedoms and greater trade and investment 
flows. These treaties can encourage investment by providing 
investors with protections against things like expropriation or 
discriminatory treatment; however, the U.S. has only ratified 
six treaties with sub-Saharan African countries over time, 
which covers a mere seven percent of regional GDP. And, to-
date, the Obama Administration has not successfully negotiated 
a single, legally binding investment agreement.
    Countries like China and Canada have demonstrated that 
African governments are ready to sign these agreements, 
including major economies like Nigeria. While our peers and our 
competitors have been busy inking investment agreements, USTR 
has been pursuing ineffectual, non-legally binding trade and 
investment framework agreements. It is time that we focus and 
stop allocating very scarce government capacity and resources 
to these inconsequential talk shops and start pursuing real 
agreements that catalyze much-needed investment flows to the 
Continent.
    Thank you very much.
    [The prepared statement of Mr. Leo follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   

    Chairman NUNES. Thank you, Mr. Leo.
    Mr. McRaith, you are now recognized for five minutes.

 STATEMENT OF WILLIAM C. MCRAITH, CHIEF SUPPLY CHAIN OFFICER, 
                           PVH CORP.

    Mr. MCRAITH. Thank you, Chairman Nunes, Ranking Member 
Rangel and distinguished Members of the House Ways & Means 
Trade Subcommittee.
    On behalf of PVH I want to thank you for allowing me the 
opportunity to testify in front of this Committee. I have 
already submitted my written copy for you to read. I am going 
to talk from these points and try to remain focused on them.
    So my name is William McRaith, Chief Supply Chain Officer 
for PVH. I also sit on the board of the American Apparel and 
Footwear Association. And color on PVH--PVH is one of the 
largest apparel companies in the world. We are headquartered in 
New York with distribution sales in other corporate locations 
in multiple states across the U.S., including Georgia, North 
Carolina, New Jersey, New York, Nevada, Pennsylvania and 
Tennessee. Among others, our company brands include Calvin 
Klein, Tommy Hilfiger, Van Heusen, Arrow, Warner, Izod and 
Speedo, and we are directly responsible for 16,000 jobs within 
the U.S.
    PVH is a dedicated, global corporate citizen. Outside of 
the U.S., we have 3,000 retail locations and provide more than 
14,000 additional jobs. My message today is quite simple. Many 
parts of Africa are ready. They are primed to receive large 
investments that will generate economic growth envisaged by the 
AGOA founders. To get there, though, AGOA must be renewed as 
soon as possible, and for an extended period of time, including 
its third country fabric provision. With the right approach, 
Africa can become a vertically-integrated sourcing region for 
the apparel industry and generate thousands, tens of thousands 
of jobs and added value to their economies.
    AGOA was the right trade policy 15 years ago, but it was 
ahead of its time for business community and for Africa to be 
able to fully utilize it. However, we are now seeing more 
mature and democratic countries, better and lasting 
infrastructure and more meaningful, economic and educational 
reforms starting to take root. Congress must send an 
unequivocal signal to the investor and business community by 
promptly approving a lengthy extension of AGOA.
    Just a very quick story of our own: In April of this year, 
PVH together with several of the largest apparel companies, 
textile manufacturers and stores conducted an exploratory 
business mission to this region. I would say many of those 
companies that went with us were skeptics. They were cynics. 
They really did not believe it was ready for this type of 
investment.
    After visiting sites, looking at infrastructure, and 
meeting with ministries from different countries, our business 
delegation came to the realization that some African countries 
had already laid the foundations necessary to attract 
significant foreign investment and were prepared to undertake 
the commitments necessary to secure socially responsible 
investors. What we saw in Africa reminded us all of some of the 
current production powerhouses we are in today and what they 
looked like 20 years ago. There is great excitement among the 
apparel business community about this very near growth 
opportunity in Africa.
    African nations are on much more of a course than just to 
become pure seamstresses. They can become the world's very 
first example of how to proactively build a fully vertical, 
socially compliant, human rights compliant, ground to finished 
product supply chain. Africa can invest, attract the investment 
in other added value processes, such as cotton growing, yarn 
spinning, weaving and logistics. Countries in Africa will also 
be the beneficiaries of a more inclusive model of investment 
and growth in which socially responsible companies like PVH 
will be able to put in place right from the very beginning 
facilities, norms and values that will guide the work at the 
factories and the relationships between workers, managers, 
associations, civil society groups, governments, and any other 
stakeholders.
    I see my time is a little bit short. I only have three more 
points to make. So if I can just quickly move through them, the 
U.S. can help us in many ways.
    One of those: programs that will help increase the quality 
and yield of African cotton, vocational and educational 
programs to help train workers and management, projects that 
help build interregional connectivity for goods to transit the 
Continent seamlessly will enhance the attractiveness of the 
region.
    Aside from a lengthy AGOA extension, one way to the 
additional certainty for the business community is by extending 
the Third Country Fabric Provision for a reasonable period of 
time and allow the growth of the investments that will make 
this Third Country Provision no longer necessary. As someone 
who has been involved in global operations for over three 
decades and recently had to ponder the question of where is the 
next growth region for the next 20 to 30 years, I believe that 
we now have the answer. It is Africa.
    We must not lose a moment in this tremendous opportunity 
for Americans and for Africans alike. To make it happen, AGOA 
must be renewed soon and for a lengthy period of time. In 
addition, Congress and the Administration must continue to work 
hand in hand to improve and facilitate the creation of programs 
that will strengthen the Africa region. We look forward to 
working with the Members of this Committee, other Members of 
Congress, and with the Administration in this worthwhile goal.
    Thank you, Mr. Chairman. Apologies for the time.
    [The prepared statement of Mr. McRaith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
                                    

    Chairman NUNES. Thank you, Mr. McRaith.
    Mr. Schneidman, you are now recognized for five minutes.

        STATEMENT OF WITNEY SCHNEIDMAN, SENIOR INTERNA-
        TIONAL ADVISOR, COVINGTON & BURLING LL; NONRESI-
        DENT FELLOW, AFRICA GROWTH INITIATIVE, BROOKING

    Mr. SCHNEIDMAN. Chairman Nunes, Ranking Member Rangel and 
distinguished Members of the Committee, it is an honor to 
testify before you today.
    On the eve of the African Leaders Summit, the moment could 
not be more timely to be considering the renewal and 
strengthening of the African Growth and Opportunity Act. I will 
briefly discuss several critical issues related to AGOA, but 
first it is important to note that AGOA is the cornerstone of 
the U.S.-African commercial relationship, and it provides the 
U.S. with a strategic advantage on the continent.
    Over the course of the last 14 years, AGOA has led directly 
and indirectly to the creation of several million jobs. For a 
continent of one billion people, where the median age is 17, 
this is a significant contribution to economic growth, social 
stability and the emergence of a middle class with a strong 
appetite for American products and brands. There is also a 
strong affinity with the way in which American companies do 
business in Africa in terms of skills development, technology 
transfer, career enhancement and respect for rule of law and 
anti-corruption practices. It is in our strategic interest, 
therefore, that a renewed AGOA contributes to a deeper U.S. 
commercial engagement in Africa, while also encouraging more 
experts from beneficiary countries. As for the most critical 
issues, let me start with the timeframe.
    Most Americans have what might be referred to as a pre-
dial-up perception of Africa. In other words, their views of 
Africa continue to be informed by the Cold War, before the 
Internet when coups, conflict and corruption were rife. There 
is little appreciation for the rapid growth, the significant 
improvement in governance and the emergence of a middle class 
on par with that of India and China. In order to change how 
American companies view Africa, there can be no higher priority 
than creating a framework of stability and predictability for 
entering the African market. The same is equally true for 
African and other companies navigating the complexities of 
exporting to the U.S. market under AGOA. All of them need 
assurances of a stable and sustainable set of commercial rules.
    For that reason, I support the African Union in its call 
for a 15-year extension of AGOA from 2015 to 2013 (sic). Now, 
many American companies, especially small and medium companies, 
need support to be successful in Africa. African companies 
generally need assistance to fund buyers in the U.S. and comply 
with U.S. regulations. The architects of AGOA anticipated some 
of these problems and created three trade hubs, not only to 
help African companies enter the U.S., but also to facilitate 
American companies.
    The architects of AGOA anticipated some of these problems 
and created three trade hubs to help African companies utilize 
AGOA. The time has come, however, to redefine the role of the 
trade hubs. They need to be restructured into trade and 
investment hubs, so they not only help African companies enter 
the U.S., but also facilitate American companies to capture 
market share on the African continent. To do this, the newly-
fashioned trade and investment hubs should become one-stop 
shops where the trade promotion activities of our embassies, 
officials from the Departments of Commerce and Agriculture, 
ExIm and OPIC, are closely aligned on a daily basis in support 
of enhancing the U.S. commercial presence on the continent. For 
this to happen, the Administration would have to commit to a 
``whole of government'' strategy for trade promotion in Africa, 
which unfortunately has been lacking.
    Congress would have to play its part and make the funding 
available. This should be pursued with a sense of urgency, 
given the competitiveness of companies from China, India, the 
EU and elsewhere in Africa. Now, it is often said that 
``Capital is a coward,'' which explains why Africa accounts for 
only one percent of U.S. investments world-wide, which is a 
shockingly low number. As part of a reauthorized AGOA, Congress 
should establish a tax incentive to help change the risk-reward 
ratio for American companies by reducing the tax to zero on 
repatriated income by U.S. companies who make new job-creating 
investments in supply chain products in agriculture, 
manufacturing, apparel, technology, clean energy and other 
relevant sectors. Congress and the Administration would reduce 
the risk for American companies to invest in Africa.
    I would just like to touch on one or two more points 
quickly, as I see my time is running out. No issue is as 
central to Africa's accelerated economic development as 
regional economic integration. The U.S. has largely understood 
this, but we can do more to facilitate the flow of goods, 
services and labor across Africa's borders. The principal 
challenge to regional integration comes from an unlikely 
source, and it is the Economic Partnership Agreements, which 
the European Union is compelling African governments to sign by 
October 1st, or African governments face losing their 
preferential access to the European market.
    In fact, the EPAs threaten to undermine much of the 
progress that has been made on regional integration, as they 
would give European goods and services preferential access in 
an African country over goods and services from a neighboring 
African country. They would also discriminate against American 
companies and products. The EPAs present a significant 
challenge to the U.S. as the U.S. is poised to negotiate 
regional free trade agreements throughout Africa, while we are 
discussing today the extension of a non-reciprocal trade 
benefits program with 40 countries on the continent. While it 
is essential that we renew AGOA, we should address this issue 
of this profound asymmetry.
    Last year, the U.S. exported $24 billion worth of goods and 
services to Africa. This translates into support for more than 
130,000 jobs in the U.S. So our relationship with Africa is 
changing from one of donor/recipient to one of mutual gain and 
benefit. Under AGOA in 2013 the U.S. imported nearly $5 billion 
worth of non-oil, largely job-creating goods, almost four times 
the amount in 2001. In both respects, these trends are 
encouraging; but, with a 15-year extension of AGOA, these 
trends can become much, much stronger.
    Thank you for the opportunity and the extra time.
    [The prepared statement of Mr. Schneidman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   

    Chairman NUNES. Thank you, Mr. Schneidman.
    Because of the Ranking Member's long-time concern about 
AGOA, and he's really been the champion in Congress, I am going 
to yield my time to the Chairman so he can get into the 
questions.
    Mr. RANGEL. I can't thank you enough for your courteous 
consideration, and I want to thank the witnesses for their 
contribution. Legislatively, time is not on our side this year, 
and we have a lot of things to consider as to whether or not 
the 15 years--even though it would give investors some degree 
of continuity, we certainly don't want to put these countries 
in a box that we can't revisit and see what changes have to be 
made.
    We also know that the Third Country Origin of fabric is the 
easiest way that a lot of them want to go, but we also know 
that we want to provide incentives so they would not have to go 
outside of these countries. And the Congress, as you all know, 
we have separated two different committees and subcommittees. 
And most of the testimony appears as though you think our 
Executive Branch is that separated too. And I want to get 
whatever suggestion you can make.
    Here we are, a country trying to maintain peace and 
economic stability in the world and we have an opportunity of 
people who are basically friendly to us. They are in need. They 
want to trade, and whether or not it's bilateral or whether 
it's not this broad, which agency do you think would be the 
best to coordinate these activities; so that, whether we are 
talking about diplomacy, whether we are talking about security, 
whether we are talking about education, whether we are talking 
about electricity and infrastructure, when a patient is sick, 
they don't want to know the specialist. They want to know 
generally ``what are you doing to help me''. And everything 
that you said, it sounds like all of us would say we wish we 
had thought about it, but our Committee does not have the 
expertise. We don't have the experience to know how to go about 
this, even though we are there to provide the tax incentives 
and the structure.
    So, could you--any one of you--suggest to us a sense we 
cannot do it this year? A lot of us will be attending the 
conference. We will have very little input, because it's an 
executive conference, even though we will have the opportunity 
to talk with the representatives of these countries. What could 
we recommend to our Executive Branch as a result of this 
hearing, which the Chairman called, so that we would have the 
hearing before the summit? We won't be able to tell them we 
have a treaty to be signed, but we should be able to tell them 
something before they tell us.
    What recommendations, Mr. Leo, since you had four points? 
Who would coordinate, assuming they all made sense like I did, 
what agency, and certainly what would be the USTR?
    Mr. LEO. Thank you, sir, for the comments and the question. 
I agree with you with the point in terms of a need for very 
close coordination and a strategy to be developed, implemented, 
monitored with a single agency on the hook for accountability. 
And given the breadth of the issues that are very important and 
influential to all the matters that we are talking about, and 
so the fact that there are so many different government 
agencies that have a small, little piece, sometimes a medium-
sized piece, I think, given that, it has to be driven out of 
the White House within the Executive Branch. And as a person 
who served at the White House in the past on the National 
Security Council, I can understand how that vehicle is 
required. So I think it has got to be the White House that 
drives it.
    USTR can be the lead on a couple of the issues. They can 
lead, along with the State Department, on bilateral investment 
treaties. They can lead on AGOA. USAID and MCC can lead on some 
of the softer trade capacity building assistance, but what we 
have right now is a lack of an over-arching strategy that has a 
continental, regional, and country-specific approach to it. So 
I think, first, White House needs to be the driving force; two, 
needs to have a strategy including on trade capacity 
assistance; and then, three, have within at least the Executive 
Branch, budgetary authority attached to it.
    Obviously, Congress will have the final say on where the 
money comes and goes, but within the request needs to have some 
data authority attached to it, because money is what is going 
to drive things on a lot of these vehicles. And then lastly, at 
the country level, I think the U.S. Ambassador needs to be in a 
position to approve all of the government agency actions that 
involve this agenda, and that's hit or miss right now. 
Sometimes that happens, but I think the Ambassador has got to 
be the final say for country-level activity. But back here in 
Washington, it has got to be driven by the White House.
    We haven't had that these last 14 years, and we need to 
have that going forward, whether it is investment trade and 
policy as well as trade capacity building assistance.
    Mr. RANGEL. Thank you.
    Mr. Chairman, after the Members have all had an opportunity 
to inquire, I would like to hear from the other two witnesses. 
Thank you so much.
    Chairman NUNES. Thank you, Mr. Rangel.
    Now, I recognize Mr. Reichert for five minutes.
    Mr. REICHERT. Thank you, Mr. Chairman. Sorry I missed some 
of your testimony. We all have other venues we have to run to 
and come back to. I want to follow-up, I think, on a little bit 
of what Mr. Rangel was talking about. I am guessing I am going 
to be heading in the direction of some strategies, but specific 
to a certain issue of growing exports. So I support a timely, 
seamless renewal of AGOA, and all of us do.
    In recent years some countries have begun to develop AGOA 
export strategies that identify measures that could be taken to 
promote a greater use of AGOA benefits. An example of that 
would be Kenya has developed a national AGOA strategy focused 
on diversifying its exports, easing barriers to exporting, and 
further strengthening ties with the United States and U.S. 
businesses. Specifically, this includes looking at ways to 
improve infrastructure, increase exposure by raising the 
profile of Kenya products, and reduce burdensome regulations.
    The problem is that most countries still don't develop 
these strategies or look at AGOA strategically. And you 
mentioned some of your strategic issues, continental, regional, 
country, the Ambassador's involvement and the involvement of 
the President. And I'm guessing that all of those components 
certainly would apply to helping in this arena. Is there 
anything that is more specific to encouraging other countries 
to sort of follow the pattern that Kenya has sort of presented.
    Anyone?
    Mr. SCHNEIDMAN. Thank you very much for that, I think, very 
important question.
    The annual U.S. AGOA forum, I think, provides a great 
opportunity for every country to come forward with their 
national AGOA export strategy, and I think we have seen where 
certain countries, you know, are using the Internet much more 
effectively, and certain governments are using the Internet 
much more effectively to post contracts in national resource 
sector. And I think that we can make a concerted effort in our 
dialogue with AGOA beneficiaries, not only to have the develop 
national strategies on AGOA exports, but to post them on the 
ministries of trade.
    And maybe they can also be posted on AGOA.gov, our UST, our 
website. And if these AGOA strategies are developed in the 
right way, the result of a consultation between local, private 
sector, civil society government, other stakeholders, I think 
they could be terribly effective. So I would like to see over 
the next two or three years that every AGOA beneficiary come 
forward with a national strategy that we can understand and 
that we can measure progress against.
    Mr. REICHERT. Other comments?
    Mr. LEO. Yeah. I would add one or two things to that. I 
think underlying your excellent question is African governments 
have the ultimate responsibility to come forward with their own 
strategies that will build upon and seize the opportunity of 
preferential access to the U.S. market. And within that, I 
think the U.S. Government should be prioritizing its engagement 
and its very scarce assistance dollars on those governments 
that have demonstrated a strong commitment to reforms and 
action. So in the case of Kenya coming forward with its 
strategy and hopefully taking very concerted actions as well, I 
think that is a great indication of a strong partner for the 
U.S. to engage with and support through a variety of different 
tools. So I think the first action has to come from African 
governments.
    Within that context on our side, going a little bit further 
than what I mentioned before, when we are thinking about trade 
capacity building assistance, I think there is a great 
opportunity to work within these strategies, and, if required, 
to supplement them with constraints analysis--growth and trade 
constraints analysis. I mentioned the political will to 
implement reforms. I have to look at that, opportunities at the 
sector level for greater trade as well as the ability to 
attract investment.
    I think it's those kinds of things that need to be guiding 
principles when we are determining where scarce resources 
should go. But it all needs to flow from governments stepping 
up and coming forward with strategies, but, more importantly 
than strategies, action.
    Mr. REICHERT. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman NUNES. Thank you, Mr. Reichert.
    Mr. Neal is recognized for five minutes.
    Mr. NEAL. Thank you, Mr. Chairman.
    Mr. Rangel and I, I think, were the only two here when this 
was actually signed into law, and we were the original 
supporters of AGOA. And the result has been encouraging, not 
just on the engagement front, but on the economic playing field 
as well. It has been estimated that there have been 1.3 million 
jobs created in Sub Saharan Africa, and U.S. trade with AGOA 
nations has grown by 300 percent from 7.6 billion in 2001 to 24 
billion last year. But there remain significant barriers to 
trade with Africa, including high tariffs, forest localization 
requirements, legal restrictions on investment and custom 
barriers amongst other issues.
    I think that there will be an opportunity when we look to 
extend AGOA to address some of these issues in a vigorous 
manner, but Dr. Schneidman, let me speak specifically to a 
question you raised in terms of how repatriation might spur job 
creation. As you know, that argument over repatriation has been 
offered in a flattened, round manner in this town for a 
considerable period of time, and it is in the background and 
much of the public debate.
    Many argue that repatriation would rescue a lot of money 
that is sitting offshore with tangible assets that could be 
better used here at home. But there's another debate as well 
that corresponds to it, suggesting that essentially if we do 
any sort of repatriation right now, you will never get tax 
reform. People will just write, once again, for a tax holiday, 
and inversions will continue to move along at the pace that 
they are currently embracing.
    So I would give you some time to explain your repatriation 
proposal.
    Mr. SCHNEIDMAN. Congressman Neal, thank you very much for 
that very important question. You know, this is an idea that 
actually a number of us have been considering for a long time 
and there are several components to the answer.
    One, I think we should think of a tax credit, a tax 
incentive as a spur to economic development in Africa, much 
like in Puerto Rico in the 1990s. We used a tax incentive to 
attract American investment there. I think the same dynamic 
would occur in Africa. There are going to be some 40 million 
jobs shifting from China and elsewhere to Africa by 2040, and I 
think U.S. companies need to be part of that. And if we go to 
zero on a tax incentive, that would be a signal to the tens of 
thousands of American companies who continue to see Africa as a 
continent in crisis, that there is something different going on 
there.
    And I think that would help American companies get into the 
game on the Continent in a very constructive way. And if they 
start making investments in agricultural investments, in 
manufacturing, in technology, I think that will have profound 
implications for economic development in Africa and I don't 
think it would be zero sum for the United States. I don't think 
it would be taking jobs away, and it would provide an 
incentive, not only to invest, but if it's invested in a job-
creating project on the Continent, it generates a profit. That 
money comes home and it is used constructively to invest in 
jobs here. I think that is a win-win, and I think we have to 
move to a new paradigm.
    We have that opportunity now, with the reauthorization to 
ask the question, how do we get more U.S. investment into 
Africa. And I think we do that by lowering the risk and 
increasing the return for American companies, and I think that 
would be the kind of incentive that would help American 
companies transfer technology, create jobs, deepen our 
connection with a continent that is rapidly emerging, and a 
continent with whom we have little contact and with whom we 
should have much, much more. So I think it would cost fairly 
little.
    We have done some studies on that and I think the return 
would be quite significant, and it would build on the good 
trust that we have with many African governments. And they 
would see that we are truly committed to moving to this new 
relationship, one of mutual benefit where we can talk about a 
mutual partnership in a number of areas, not only economic 
development.
    Mr. NEAL. Thank you, Mr. Chairman.
    Chairman NUNES. Thank you, Mr. Neal.
    Mr. Buchanan is recognized for five minutes.
    Mr. BUCHANAN. Thank you, Mr. Chairman. And I want to thank 
Chairman Rangel for his leadership. I notice you have put a lot 
of energy, as the Chairman mentioned. So I appreciate your 
effort, and I agree with you. It is nice that we can find a way 
to come together once in a while. I like that for the sake of 
America.
    Let me just mention we all have seen the numbers about the 
jobs and the three-fold growth. I have had an opportunity in 
the last, probably couple, three years. I have been in 10 
different African countries, most of them that have AGOA. And 
the general feeling over there is there is not a lot of 
enthusiasm on their side. You know, frankly, there is not a lot 
of enthusiasm on our side. I think this has to be looked at in 
a much broader context.
    We need to really engage the Administration, get more 
involved. I had met a couple of equity companies from New York 
that were in Ethiopia that were doing very well. They were in 
cement and block. They don't have access to capital. And, as 
you mentioned about China, it was my observation--pretty much 
every country I was in--China was building facilities, 
primarily palaces and government facilities for a lot of 
different places all over Africa. It was pretty universal from 
that standpoint.
    We are making a commitment more in terms of healthcare and 
other things that we are involved in, but I think it is an 
enormous opportunity. I think three times the amount of growth, 
from eight billion to 25 billion, is not exceptional. I think 
there is a real opportunity to go forward, but we really need 
to take a look at AGOA in general. I can just tell you, and 
like I said, I don't mean to be redundant, but it was pretty 
universal, talking with a lot of heads of states and business 
people over there. They liked it, thought it was okay, but not 
great, and I think we really needed to take a look at what more 
we could be doing.
    So my question I guess to all the panelists is what are a 
couple of things that you would recommend that we might do 
going forward to make the difference, to bring some more 
enthusiasm. Because I would like to see us build a better 
partnership with Africa, and there's other countries, like 
China and others that are fully engaged over there. And we 
don't want to find ourselves in five or ten years in third 
place.
    So, Mr. Leo, what are your thoughts?
    Mr. LEO. Thank you, sir, and I think you raised what is a 
very core, fundamental question about our U.S. policy towards 
this very strategic and dynamic region. In direct response to 
your question, I think there is a couple of things that we 
could do that would bring our engagement and our relationship 
to a higher level.
    First, before going into the specifics, though, first, it 
is not surprising that you have heard from the heads of state 
that you have met with about the need for economic engagement. 
When you look at existing surveys of ordinary African citizens, 
over 70 percent of them across the continent cite economic-
related issues as their most pressing concerns, that they want 
to have their governments focus on. And as you would expect as 
related to that, there were external partners, and this is the 
issue African leaders are totally focused on it. So as a 
result, along with the very significant opportunities now and 
in the future, this is where we should be focusing our 
attention much more than we are today. So, what are the pieces?
    One, I think a seamless extension of AGOA. I think that is 
pretty straight-forward. I don't think there is a lot of 
controversy on that. Two, the pieces that I mentioned before in 
terms of making our trade-related assistance much more 
strategic and focused on the most pressing constraints to a 
firm's ability to be globally competitive; three, following the 
leadership out of the House with the Electrify Africa Act, 
focusing on those kinds of constraints; and, with that, the 
reauthorization of the Overseas Private Investment Corporation. 
If African governments and leaders and businesses are focused 
on attracting investment, OPIC is one of the best ways to do 
it.
    We need the Senate to move on the Energize Africa Act, 
which will do a multi-year reauthorization, but also give OPIC 
additional tools. They don't need more money. They don't need 
more appropriations. They need more flexibility and tools to be 
more effective and scaled. So I would unleash OPIC as another 
piece.
    I mentioned bilateral investment treaties. That's another 
tool that is very low cost. It is basically staff and travel 
expense to be able to do this. It is not billions of dollars.
    Witney had mentioned the risk profile. Well BITs are one 
way of addressing that issue at almost zero cost to taxpayers.
    Mr. NEAL. I would like to get some additional comments, Mr. 
McRaith.
    Mr. MCRAITH. Yes. So it is a great question and I don't 
want to kind of undermine the discussion that has just been 
had; but, what I would maybe go back and focus on is the fact 
that we are at a moment in time today that is different to 
where we were 15 years ago. So you could say AGOA failed. I am 
not sure what the appropriate terminology is.
    If you look at my industry, the apparel industry, we failed 
$24 billion worth of AGOA-driven trade, only of which 900 
million of it is from the apparel sector. A labor intensive--in 
fact, generally the first mover, most labor intensive industry 
in the world, and it has typically led the way into most 
developing countries. The time is now. It wasn't right 15 years 
ago. It is right today. So it will be the private sector that 
actually drives most of this, and we need the on-the-ground 
ambassadors who, in Ethiopia, were incredibly supportive of the 
work we did there on a recent trip in Kenya, similar in Uganda. 
So I think that we have got to help the nations shake off the 
old AGOA, because I think they languish in it. It didn't work. 
There is no energy around it. You go to Africa. China is 
present everywhere.
    Mr. NEAL. Everywhere.
    Mr. MCRAITH. Europe is present everywhere. America is MIA 
at this point. We are missing in action.
    Mr. NEAL. That's my point, I think.
    Mr. MCRAITH. But renew AGOA, because everyone is looking. 
Everyone is ready to go. However, when you think of September 
2015 as the renewal date, the renewal date is today, because it 
takes us a year to figure out what we are doing there. We are 
ready to go. We are ready to go. We are ready to move, and this 
is sitting right in front of us. And, quite frankly, if we do 
not renew AGOA, it is not about the timing of entry. It is 
about the exit.
    Mr. NEAL. We are probably out of time, but that was good. 
Do you want a quick comment?
    Mr. SCHNEIDMAN. Yes.
    Chairman NUNES. Just quickly, Mr. Schneidman.
    Mr. SCHNEIDMAN. I will tell you, Congressman. Let me just 
mention two things. One, I agree fully with the comments right 
here that we need to get the framework done in place. Renew 
AGOA as quickly as possible. My second point is I think we have 
to stir people's imagination, and that was done on Sunday when 
the U.S. African development foundation gave 36 grants of 
$25,000 each to the Washington Fellows who are here as part of 
the Young African Leadership Initiative.
    We need to take that to scale, and I think if we can be 
seen as catalysts of entrepreneurship, catalysts of innovation, 
that's what America does best and that is what Africa is so 
thirsty for. So I think we can play it a number of different 
levels at the same time, but we just have to get going to do 
it.
    Mr. NEAL. Thank you.
    Chairman NUNES. I thank the gentleman.
    Mr. Blumenauer is recognized for five minutes.
    Mr. BLUMENAUER. Thank you very much, Mr. Chairman, and I 
appreciate the way that you and Mr. Rangel have organized this 
hearing. I am sorry I was called away from one, but I had a 
chance to review the testimony.
    I appreciated, Mr. McRaith, your reference to 
sustainability, and there was some acknowledgment of 
environment. But I want to seek feedback from each of you, 
because my limited involvement with the African continent, I 
have only traveled there a few times. Although I did get quite 
an experience through the eyes of my daughter who was a Peace 
Corps volunteer for two and a half years, and then traveling 
with her, watching it from the other side, and the 
conversations I have had with elected officials from Africa.
    I am deeply concerned that we use this as an opportunity to 
put a focus on sustainability, on environmental protection, 
because some of the most egregious practices imaginable are 
taking place, and we are watching. I think the case is clear 
that there is going to be rapid economic development and there 
should be. And we certainly are not interested in holding 
people back, but there are alternative paths. And I would just 
appreciate any of you elaborating on this point, about how we 
should approach this agreement as a vehicle to highlight 
sustainable environmental practices, be able to incent the 
right things, and perhaps a signal to not engage in some of 
this destructive behavior that we are seeing.
    Mr. MCRAITH. So, Congressman, maybe I can take a response 
to that. So, again, I am going to focus my response around what 
we refer to as the EAC and Ethiopia, so the Northeastern Region 
of Africa. And, you know, so there are some givens on 
sustainability. You are looking at countries between Ethiopia, 
Kenya and to some degree into Uganda. And I know Ethiopia is 
not part of the EAC, but hopefully will be soon, countries that 
are virtually 100 percent sustainable energy today, either 
hydro, wind, or eventual thermal energy that they will have put 
into place. So already I would say they are ahead of many 
countries in these manufacturing powerhouses that exist today 
in the term ``sustainable''.
    What I would also say is for 30 years from the demise of 
the European and U.S. manufacturing base for the last 30 years, 
companies like ourselves and those partners that we work with, 
we've had successes and we have had many failures. But we have 
learned from every one of those. And, you know, its 
sustainability, just corporate social responsibility of which 
sustainability is a part, was a major theme of the trip that we 
were on.
    In fact, we had the opportunity to meet with the presidents 
of Uganda and Kenya and the Prime Minister of Ethiopia, and the 
simple question that we asked them was in 10 years from now how 
do you want people to perceive the brand of your company? So 
when people say ``Brand Ethiopia,'' how will they talk of Brand 
Ethiopia? Because the decisions you make today are going to 
determine how people think of it in 10 years. And we have 
processes in place today, the accord and the alliance.
    In Bangladesh, we are retroactively trying to correct some 
of the things that were not done appropriately, by engaging, 
but--not by stepping back and saying there are issues we can't 
engage, but by actively engaging in bringing the right socially 
responsible partners to the table. Again, I would argue this 
will become a showcase in the world as to what sustainability 
could look like, what human rights compliance could look like, 
but we will do it through our presence.
    Mr. BLUMENAUER. I see my time is almost expired, but I 
would welcome elaboration from any of you on those elements, 
notwithstanding, for example, in Ethiopia where they are 
aggressively pursuing hydro. I mean there are lots of practices 
there that gave me pause, and that didn't appear to be 
particularly sustainable, notwithstanding the energy.
    If there are elements that you see going forward with the 
agreement in a way that we can provide the right signals and 
incentives, as well as we've been doing a lot of work with 
illegal logging and having some problems with Peru these days--
we thought we had worked out in the Peru Free Trade Agreement. 
Thoughts that you have that could be incorporated here would be 
deeply appreciated.
    Thank you, Mr. Chairman.
    Chairman NUNES. Thank you, Mr. Blumenauer.
    Mr. Smith is recognized for five minutes.
    Mr. SMITH. Thank you, Mr. Chairman, and thank you to our 
witnesses for sharing your time and expertise with us today. 
And I don't want to repeat this among the items that have been 
addressed by my colleagues. I certainly do want to add, 
perhaps, emphasis that I am encouraged by various efforts that 
can hopefully build more capacity. And I think there are great 
opportunities for the future here. And as we do work through 
the customers' challenges and so forth, I am just wondering 
about some additional barriers that exist, specifically, with 
South Africa, Nigeria, and members of the South African 
development community as it relates to unscientific sanitary 
and phytosanitary and other tariff or non-tariff barriers to 
agriculture, our agriculture exports. Can any of you reflect on 
that a bit?
    Mr. SCHNEIDMAN. If I may, Congressman, this is an issue 
that we have looked at carefully, and I think there is a 
feeling among a number of our poultry producers, for example, 
that South Africa does practice unfairly--has unfair practices 
as it concerns U.S. poultry products going into the country. 
And this is a problem, and I think we really need to engage the 
South Africans in a very sustained and serious way so that we 
can level the playing field, because South Africa is a very 
important partner to the United States.
    We tried to develop a free trade agreement 2003, 2006, and 
it didn't work. South Africa has free trade agreement with the 
EEU, and it suggests to me that we really haven't--we haven't 
sorted out our relationship. So there are a number of issues, 
and I would like to see us really take a step back, engage in a 
sustained exercise between the U.S. Government and the South 
African Government, to really chart what our commercial future 
looks like and how we get sort of a ``post to go on'' 
relationship. Because I think it is going to start there, and 
we haven't done a good job to really embrace that challenge.
    Mr. SMITH. Okay. Mr. Leo, in your testimony, you mentioned 
that preferential access under AGOA should be contingent on 
noticeable economic improvements. Would you suggest that these 
improvements would include ironing out these disputes based on 
the sanitary, SPS, if you will, standards or various trade 
policies relating to that?
    Mr. LEO. Thank you, sir, for the opportunity to comment on 
this. In full transparency, I am not intimately familiar with 
this set of issues related to South Africa. In terms of the 
eligibility requirements, though, more broadly, I think there 
is a couple of guiding principles that should be applied if 
Congress decides and the Executive Branch decides to go in this 
direction. I think it needs to be real and transparent in terms 
of the principles that would be applied to all countries and 
would be tracked by third-party data that's public. So in 
essence it is apolitical in terms of, action has either been 
taken or it has not been taken. And then along with that there 
would need to be a transition period so that African 
governments actually have the opportunity to address any of the 
issues that are being tracked and then implemented in the 
country determination process.
    Whether the issues that you raised should be a part of 
those specific criteria that are related to the business 
climate or other operating climate issues could be debated, 
could be discussed and maybe adopted later. At this point, I 
focus more in terms of what the guiding principles should be 
with specifics that could be fleshed out later, if the 
``parties that be'' decided that this is a sound way to go, 
which I believe it is in general terms.
    Mr. SMITH. Sure. And I would very straight-forwardly 
suggest that the more we can stick to the scientifically based 
standards, the better off everyone is, whether it is consumers 
in another country who would consumer our products that are 
safe. We do want to focus on these standards that we have been 
able, I think, to achieve some progress in ironing these things 
out with some other countries. But it is something that I think 
needs addressing, and not just with this issue, but others too 
as we do move forward.
    Thank you, Mr. Chairman. I yield back.
    Chairman NUNES. I thank the gentleman.
    The gentlelady from Kansas, Ms. Jenkins, is recognized for 
five minutes.
    Ms. JENKINS. Thank you, Mr. Chairman, and thank you all for 
being here.
    The Peterson Institute forecasts that the Trade 
Facilitation Agreement could add 500 billion to the GDP in 
developing countries; yet, India and certain African countries 
have balked at implementation. For Africa, in particular, 
implementation of the TF agreement holds potential to reduce 
barriers to intra-African trade and to promote Africa's 
integration into global supply chains.
    We are all watching the upcoming implementation deadlines 
and hope all countries promptly and fully adopt the TF 
agreement. And, gentlemen, I would just be interested in how 
would implementation of the TF agreement promote regional 
integration in Africa and help to address supply side 
constraints.
    Mr. Leo.
    Mr. LEO. Thank you. Thank you for the question, and I think 
it is a really big, important issue. And right now I think it 
is a quite difficult issue in terms of where those negotiations 
are and where some of the positions are.
    I think within the trade facilitation agenda, everyone 
agrees that it is critical for the issues that you talk about 
as well as U.S. businesses to be able to operate. Whenever I 
talk to U.S. businesses, this is actually their number one 
issue that they want to get focused on. So I think it would 
have a big impact. I don't have any great ideas in terms of how 
we want to get from where we are now to where we need to be 
beyond some just general points about needing to engage with 
all of the major players who are driving the continental 
positions that are feeding into the WTO and some of the back 
channel discussions. But it is an issue that needs to be put 
behind us as quickly as possible so we can focus on the 
substance and addressing some of the underlying issues that are 
holding back or constraining opportunities now and in the 
future.
    Ms. JENKINS. Any of you have any additional thoughts?
    Mr. MCRAITH. Yeah. So I will give it from an Apato 
perspective, you know, because one of the challenges--we often 
refer to Africa in some cases as if it was a country, and it's 
clearly a continent of significant size. And what we see within 
Africa is we see different trade blocs emerging, COMESA, the 
East African Community, SADIC, has been in place for some time, 
and we continue to see the growth of those trade groups. And 
our own encouragement--and again I'd go back to the discussions 
that we have been having there--is how do we now think of 
Africa's regionalized, regional locations that include multiple 
countries that allow trade to flow freely in any direction, so 
across-border trade, unrestrained, untaxed, no-duty.
    What I would tell you is from our perspective in Northeast 
Africa, we were struck at the level of the commercial 
ministries and just how focused they were on resolving these 
cross-border trade negotiations. So we walked away with the 
rest of the group, highly encouraged where all of Africa might 
have free trade movement within their collective regions. This 
was going to be solved and addressed; and quite frankly with or 
without us, it was going to be addressed.
    Ms. JENKINS. Okay. Mr. Schneidman?
    Mr. SCHNEIDMAN. Thank you for the question. I have just a 
brief comment. And it is: I think we need to make progress. We 
need to move forward in areas where we can make progress. The 
Administration has proposed a trade and investment treaty with 
the East African Community, and I am hopeful that we are able 
to conclude that very soon, and then that becomes a model. The 
benefits of that relationship becomes a model to other regions 
on the Continent, that hopefully would provide an incentive of 
the benefits of working more closely with the United States, 
because I think that is a most effective demonstration of what 
the U.S. has to offer as a trading partner.
    Ms. JENKINS. Okay. Thank you. I yield back.
    Chairman NUNES. I thank the gentlelady.
    The gentleman from Indiana, Mr. Young, is recognized for 
five minutes.
    Mr. YOUNG. Thank you, Mr. Chairman, for your leadership on 
this issue. Ranking Member, I appreciate your longstanding 
interest and leadership on this issue as well.
    Chairman NUNES. If the gentleman will yield, I forgot to 
introduce you also that you will be representing our Committee 
at the AGOA meetings next week. And I want to thank you for 
that, representing the Republican side.
    Mr. YOUNG. Happy to do it, and I found your testimony here 
today quite instructive in preparing me for visiting with some 
of these African dignitaries in getting some more context and 
texture with respect to reauthorization. Also in addition to 
that duty and responsibility, which I am happy to have, I am a 
co-chair of the Transatlantic Trade and Investment Partnership 
Caucus here in Congress. So on a periodic basis, I will visit 
with European leaders, diplomats, trade ministers, and so 
forth, with a few of my other colleagues.
    So the intersection of U.S.-EU relationships, trade 
relationships, U.S. African trade relationships to me is quite 
interesting; and in fact we are having a TTIP caucus meeting in 
less than an hour. And so my line of inquiry here is directly 
related to that subject matter. In recent years, the EU has 
pushed African countries out of its own unilateral preference 
program and into reciprocal, bilateral trade agreements. The EU 
calls them economic partnership agreements. Of particular 
concern, the tariff preferences and the EU South Africa EPA 
have largely entered into, force--In U.S., exporters are at a 
significant disadvantage in losing market share.
    The EU is pushing EPAs with many other AGOA members that 
would further disadvantage U.S. exporters. While Congress has 
never required that AGOA countries provide reciprocal access to 
U.S. exports, the fact that some are now offering this 
preferential access to the EU, but not the United States has 
raised serious concerns.
    Mr. Schneidman, what can we do to address the EU's actions?
    Mr. SCHNEIDMAN. Thank you, sir, for I think one of the 
central questions in U.S.-African and U.S.-EU trade today. I 
firmly believe that this should be a topic in the U.S.-EU 
dialogue in the TTIP negotiations. How is it that we are 
offering the Europeans to create the largest free trade area in 
the world, when they are basically compelling African 
governments to accept these EPAs that basically shut us out of 
the African market?
    That is a pretty stark dynamic that is in place, and I am 
just stunned that the Administration really hasn't embraced 
that more. And I think, really, we need to start with EU, 
because there has been a lot of opposition in Africa to these 
EPAs. And many of the African governments really have had no 
choice but to sign on to these.
    Mr. YOUNG. Right.
    Mr. SCHNEIDMAN. So I think, you know, we need to engage the 
African governments as well. I think we need to do this in the 
U.S.-EU context, and a U.S.-African context, but it just stuns 
me that we are talking about offering a non-reciprocal benefits 
to Africa at the same time that the EU is talking about a 
reciprocal relationship. And to Africa's benefit, I think it 
should be harmonized more directly, and I think the first place 
to start is in the TTIP negotiations.
    Mr. YOUNG. Mr. Leo, do you have anything to add to those 
remarks?
    Mr. LEO. Yeah. Congressman, I don't have a whole lot to add 
beyond what Witney mentioned.
    One of my colleagues at the Center for Global Development, 
Kimberly Elliott, has spent a lot of time looking at exactly 
these sets of issues. And, if you are amenable, I am sure she 
would be very pleased to follow up with you with additional 
thoughts as well.
    Mr. YOUNG. Okay. Well, I thank you all for being here, and 
I yield back.
    Chairman NUNES. I want to thank the gentleman from Indiana 
and for his active participation in the African continent 
issues. We look forward to having a good week next week and 
hearing back from you. Thank you, Mr. Young.
    With that, I would like to thank all the witnesses for 
their testimony and for the responses to our questions. I think 
you have given us all much to think about. Our record will be 
open until August 30th, and I urge interested parties to submit 
statements to inform the Committee's consideration of the 
issues discussed today.
    This hearing is now adjourned.
    [Whereupon, at 3:14 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow:]

                 Africa Coalition for Trade, Statement
                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
                 
                 

       Africa Cotten & Textiles Industries Federation, Statement
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       




                               

                   American Sugar Alliance, Statement
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
                   
                   





                                 

                      Brown Shoe 072914TR, Letter
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                     




                                 <F-dash>

         Footwear Distributors and Retailers of America, Letter
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         




                               

               National Pork Producers Council, Statement
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 



                                 

                       CBI Sugar Group, Statement
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
